           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  SOCIAL SECURITY ADMINISTRATION’S
   CONTROLS OVER REDISCLOSURE OF
        SENSITIVE INFORMATION
      IN THE KANSAS CITY REGION

     November 2007   A-07-07-17055




EVALUATION REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      November 28, 2007                                                                  Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Social Security Administration’s Controls over Redisclosure of Sensitive Information in
           the Kansas City Region (A-07-07-17055)


           OBJECTIVE
           Our objective was to evaluate the controls the Kansas City Region has in place to
           ensure that sensitive information shared with State agencies and their contractors is not
           being improperly redisclosed to unauthorized parties. 1

           BACKGROUND
           The Social Security Administration (SSA) through its computer matching program, also
           known as the data exchange program, shares applicant and beneficiary information
                                                                                     2
           with State agencies for the purpose of verifying eligibility for benefits. The Social
           Security Act requires that “…a State must have in effect an income and eligibility
           verification system…” to administer federally-funded benefit programs such as
                                                                              3
           Medicaid, food stamps, and temporary assistance for families.




           1
             Sensitive information is defined by SSA as “information, the loss, or misuse, or unauthorized access to
           or modification of which could adversely affect the national interest or the conduct of federal programs, or
           the privacy to which individuals are entitled to under 5 U.S.C. § 552a (the Privacy Act) ….” This includes
           personally identifiable information (PII), which SSA defines as “information obtained from SSA that can be
           used … to identify a specific individual.” Examples of PII are name, Social Security number, Social
           Security benefit data, birth date, or State or Government issued driver’s license or identification number.
           2
               POMS GN03314.001J.2 and GN03314.155A.
           3
               The Social Security Act, § 1137(a), 42 U.S.C. § 1320b-7(a).
Page 2 – Michael W. Grochowski

SSA’s written data exchange agreements comply with the Privacy Act, 4 which requires
the confidentiality of information maintained by Federal agencies and provides
guidance on disclosing personal or sensitive information. The Privacy Act states the
data exchange agreement should include:

      •   procedures for ensuring the administrative, technical, and physical security of the
          records matched and the results; and

      •   a ban on duplicating and redisclosing records provided by the source agency
          within or outside the recipient agency, except as required by law or essential to
          the matching program. 5

Each SSA Regional Office has a Data Exchange (DX) coordinator who is the contact for
State agencies that have a data exchange agreement with the Region. The DX
coordinator plays a vital role in assisting State agencies with issues and problems in the
data exchange process.

The Kansas City Regional Office requested this review because of concerns that
                                                                           6
unauthorized redisclosure of SSA’s sensitive information may be occurring.
Accordingly, we conducted a review of the Iowa Department of Human Services
(IA-DHS) and eight of its contractors performing work in the areas of Medicaid and
Foster Care. See Appendix B for the scope and methodology of our review and
Appendix C for flow charts of the current data exchange process.

RESULTS OF REVIEW
Our review focused on the controls the Kansas City Regional Office has in place to
ensure that sensitive information shared with State agencies and their contractors is not
being improperly redisclosed to unauthorized parties. 7 Specifically, we examined the
controls the Kansas City Region has in place to prevent, detect and resolve instances
of unauthorized redisclosure. We found that the controls in place to resolve reported
data exchange problems appear to be adequate. However, the controls to prevent and
detect unauthorized redisclosure need to be improved. Specifically, we found the
current controls did not prevent IA-DHS and two of its contractors from redisclosing
sensitive information without authorization from SSA nor did the controls detect these
instances of redisclosure.




4
    The Privacy Act of 1974, 5 U.S.C. § 552a.
5
    The Privacy Act of 1974, 5 U.S.C. § 552a(o).
6
  Unauthorized redisclosure of sensitive information refers to the release of sensitive information to a user
that has not been granted access to the information through a signed data exchange agreement.
7
 During the course of our review, SSA established a new data exchange agreement which was effective
July 1, 2007. The prior data exchange agreement was in effect from January 2005 through June 2007.
Page 3 – Michael W. Grochowski

INSTANCES OF IMPROPER REDISCLOSURE OF SSA SENSITIVE INFORMATION

Our review of IA-DHS and eight of its contractors identified instances where sensitive
SSA information was improperly redisclosed. As such, IA-DHS violated the terms of the
data exchange agreement. Specifically, the following instances of improper
redisclosure were identified:

      •   An IA-DHS contractor duplicated SSA information including the Social Security
          number (SSN) in its private computer system. The contractor used the SSN as a
          primary identifier for tracking foster care clients. The data exchange agreement
                                                                                         8
          prohibits the duplication of sensitive SSA information without SSA’s approval.

      •   All IA-DHS and contractor employees located at the Iowa Medicaid Enterprise
          facility had computer access to Medicaid reports containing SSA sensitive
          information. Access to these reports should have been restricted only to
          employees with a need to know such information. 9

      •   IA-DHS allowed a contractor access to sensitive SSA information in its computer
                                                                                 10
          system without having a signed contractor redisclosure request form. The
          contractor redisclosure request form obligates the contractors to follow the terms
          of the data exchange agreement including securing SSA sensitive information.

      •   An IA-DHS contractor shared paper copies of computer screen prints with
          another State agency. The computer screen prints contained sensitive SSA
          information including SSNs. Prior to sharing this information, a signed
          redisclosure request form should have been in place.

These instances of improper redisclosure occurred because SSA did not have sufficient
controls in place to help prevent the redisclosure or detect that the redisclosure had
occurred. As the following discussion illustrates, SSA needs to improve its prevention
and detection controls to reduce the risks associated with unauthorized disclosure.




8
  Prior data exchange agreement, Article X.A.3; new data exchange agreement, Article XIII.A.5. During
the course of our review, the IA-DHS instructed the contractor to delete the SSA sensitive information
from its database.
9
    Prior data exchange agreement, Article IX.A.1; new data exchange agreement, Article XI.A.1.
10
  The Kansas City Regional Office created and used the contractor redisclosure request, “Request to
SSA to Include Contracted Agent in State Agreement,” in the Region’s four States. The redisclosure
request required signatures by the State agency director, the Regional Commissioner, and the
contractor’s project director. The redisclosure request (1) obligated contractors to follow provisions in the
data exchange agreement, (2) stated the reasons for the contractor’s access to sensitive information in
the State agency computer system, and (3) authorized the access. Effective with the new data exchange
agreement, State agencies are required to obtain the contractors’ written agreement to abide by the
security requirements, and the access, use, and disclosure restrictions in the data exchange agreement
before the disclosure of sensitive information (Article XIII.A.6).
Page 4 – Michael W. Grochowski

                              One of SSA’s primary controls in the data exchange
     Prevention and           process is the data exchange agreement. SSA requires
     Detection Controls       the State agency receiving sensitive SSA information to
                              comply with the terms of the agreement. Furthermore,
SSA requires the State agency to oversee contractor compliance with the agreement’s
redisclosure provisions and information safeguards when sensitive information is
shared with contractors. Another control SSA has in place is compliance reviews
conducted by SSA’s Office of Systems Security Operations Management (OSSOM).
These reviews evaluate the computer system safeguards that SSA requires of the State
         11
agency. However, the reviews do not include the evaluation of safeguards in
contractors’ private computer systems or detect the type of redisclosure instances we
identified during our review.

The data exchange agreement and the OSSOM reviews will not prevent or detect all
instances of improper redisclosure. For example, as previously discussed in this report,
one of the redisclosure instances we identified involved an IA-DHS contractor that
duplicated sensitive SSA information. The data exchange agreement clearly prohibits
duplication; however, it does not provide a process to detect it when it occurs. 12
Therefore, SSA remains at risk for such instances of unauthorized redisclosure of its
sensitive information since it does not have a process in place that would detect the
unauthorized redisclosure.

To mitigate this risk, SSA would have to establish additional controls. SSA and IA-DHS
could consider performing reviews targeting instances of unauthorized redisclosure that
would not be identified by OSSOM’s compliance reviews. In fact, SSA and IA-DHS
have the authorization to perform reviews of controls protecting SSA’s sensitive
            13
information. However, no reviews of contractors’ facilities, computer system
safeguards, or confidentiality and redisclosure practices have been conducted by the
Kansas City Regional Office or IA-DHS. According to IA-DHS, it plans to implement a
process to begin reviews of contractors’ information safeguards sometime this year.

11
  As part of the data exchange agreement, the State agency receives SSA guidelines on computer
system security: “Information System Security Guidelines for Federal, State and Local Agencies
Receiving Electronic Information from the Social Security Administration.” The State agency is required to
(1) implement computer security controls before the data exchange with SSA begins and (2) hold
contractors accountable for implementing the appropriate computer security.
12
  “Except as necessary for the operation of this matching program, as provided in this agreement, files
provided by SSA will not be duplicated or disseminated within or outside the State Agency without the
written approval of SSA. SSA will not grant such authority unless the redisclosure is required by law or is
essential to the matching program. In such instances, the State Agency must specify in writing what
records are being disclosed, to whom, and the reasons that justify such redisclosure.” (Sources: prior
data exchange agreement, Article X.A.3, effective January 2005 to June 2007; new data exchange
agreement Article XIII.A.4, effective July 1, 2007).
13
  A provision in the prior data exchange agreement (Article IX.B) allowed SSA to conduct “on-site
inspections or make other provisions to ensure that adequate safeguards are being maintained…” at the
State agency level. At the contractor level, SSA considers the State agency responsible for contractors
and requires the agency to inspect the security of each contractor’s facilities (POMS SM10801.500.5b).
Finally, the contractor’s agreement with IA-DHS gives authority to IA-DHS or IA-DHS’ representative (such
as SSA) to monitor and review contractors.
Page 5 – Michael W. Grochowski

The absence of prevention and detection controls increases the risk of unauthorized
redisclosure for SSA. To mitigate the risk, the Regional Commissioner, in cooperation
with the Office of the General Counsel, OSSOM, and Office of Automation Support
should consider:

      •   Conducting periodic on-site inspections to verify whether State agencies
          redisclose sensitive SSA information without authorization; and

      •   Adding a provision in the data exchange agreement requiring the State agency
          to perform periodic on-site inspections of contractors’ sensitive information
          safeguards, including confidentiality and redisclosure procedures and practices
          as well as contractors’ computer system safeguards.

CONTROLS TO RESOLVE DATA EXCHANGE PROBLEMS

The Kansas City Regional Office’s process for resolving data exchange problems
appears to be adequate. The Regional Office’s current process is for the State agency
to report unauthorized redisclosure or other data exchange problems to the DX
coordinator in its Center for Programs Support. The DX coordinator works to resolve
the problem with the State agency by using regional resources first. If the problem
requires reporting to or further attention from SSA, the DX coordinator refers the
problem to one or more SSA components in Baltimore, Maryland for resolution. See
Flow Chart 3, Appendix C, for a chart of the reporting and resolution process.

When the data exchange problems involve the loss or possible loss of PII, the reporting
requirements for the Regional Office are outlined in the data exchange agreement. 14
The data exchange agreement requires that SSA will: (1) assume responsibility for
making the contact within SSA so that a formal report is filed in accordance with SSA
procedures and (2) notify the Department of Homeland Security’s United States
Computer Emergency Readiness Team if loss or potential loss of PII related to the data
exchange occurs. Accordingly, the Regional Commissioner should determine if the four
incidences of redisclosure identified in this report meet the loss or possible loss of PII
criteria and take appropriate actions.

CONCLUSION AND RECOMMENDATIONS

We reviewed IA-DHS and eight contractors to determine if the Kansas City Regional
Office had adequate controls to prevent, detect and resolve improper redisclosure of
SSA sensitive information. Controls to resolve reported data exchange problems
appeared to be adequate. However, SSA’s controls to prevent and detect redisclosure
were not sufficient and need to be improved to reduce the risk of instances of
unauthorized redisclosure like the ones identified in our review.




14
     SSA data exchange agreement, effective July 1, 2007, Article XII.
Page 6 – Michael W. Grochowski

Improper redisclosure of SSA sensitive information by State agencies and their
contractors is an inherent risk in the data exchange process and there is no way to
completely prevent it from occurring. However, there are ways to mitigate the risk.
Accordingly, we recommend the SSA Regional Commissioner:

1. Ensure that State agency contractors in the Kansas City Region have signed an
   agreement that obligates them to follow the terms in the data exchange agreement.

2. Work with the appropriate Headquarters’ components to determine when and by
   whom periodic on-site inspections should be conducted to ensure that State
   agencies in the Kansas City Region have sufficient controls in place to prevent and
   detect the types of redisclosure instances we identified in our review.

3. Work with the appropriate Headquarters’ components to determine whether a
   provision should be added to the data exchange agreement requiring the State
   agency to perform periodic on-site inspections of contractors’ safeguards for
   sensitive information, including contractors’ private computer system safeguards as
   well as a review of confidentiality and redisclosure procedures and practices.

4. Determine if the four incidences of redisclosure identified in this report meet the loss
   or possible loss of PII criteria and take appropriate actions.

AGENCY COMMENTS

SSA agreed with our recommendations. The full text of SSA’s comments is included in
Appendix D.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Flow Charts of the Current Data Exchange Process
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms

DX         Data Exchange
IA-DHS     Iowa Department of Human Services
OGC        Office of the General Counsel
OSSOM      Office of Systems Security Operations Management
PII        Personally Identifiable Information
POMS       Program Operations Manual System
SSA        Social Security Administration
SSN        Social Security Number
U.S.C.     United States Code
                                                                     Appendix B

Scope and Methodology
To meet our objective, we:

•   Reviewed applicable Federal laws and regulations, as well as pertinent sections of
    the Social Security Administration’s Program Operations Manual System, and
    Administrative Instruction Manuals.

•   Reviewed related Office of the Inspector General reports and Government
    Accountability Office reports.

•   Reviewed Regional Office information related to redisclosure policy and issues.

•   Reviewed the prior data exchange agreement between the Social Security
    Administration (SSA) and Iowa Department of Human Services (IA-DHS), effective
    January 2005 through June 2007, and the new data exchange agreement, effective
    July 1, 2007.

•   Conducted interviews of IA-DHS and eight of its contractors and performed security
    walk throughs of offices and facilities.

•   Reviewed policy and procedures from IA-DHS related to confidentiality and
    safeguarding sensitive information; reviewed contractor redisclosure requests and
    IA-DHS’ contractors’ agreements.

•   Sent questionnaires to SSA components (Office of the General Counsel, Office of
    Systems Security Operations Management, and Information Exchange and
    Matching Team) requesting information on their roles in redisclosure policy and
    issues; analyzed responses and created flow charts of the data exchange process.

We conducted our evaluation between December 2006 and March 2007 in Des Moines,
Iowa, and Kansas City, Missouri. We conducted the review in accordance with the
Quality Standards for Inspections by the President’s Council on Integrity and Efficiency.
                                                                                  Appendix C
Flow Chart 1: The Current SSA Data Exchange/ Matching
       Agreement Process with a State Agency*
                                            START




                   Establish a new                              Renew the
                   agreement with a                          agreement with a
                     State agency                              State agency
                     (18 months)                               (12 months)




             -Regional Data Exchange (DX) Coordinator works with the State
             agency to establish or renew the data exchange/matching agreement.

             -The State’s attorneys review the agreement.




             Establish a new agreement                Renew the agreement




             -Office of the General Counsel (OGC) reviews the agreement and
             works with the Regional DX Coordinator on any modifications.

             -OGC approves the agreement.




             Regional DX Coordinator obtains the signatures of the State agency
             and the Regional Commissioner on the new or renewed agreement.




             Regional DX Coordinator sends a copy to Social Security
             Administration’s (SSA) Information Exchange and Matching Team and
             to the State Agency, and keeps the original.



* This flow chart describes the data exchange/matching process which began with the January 2005
model agreements. The data exchange/matching agreement cycle is 30 months: 18 months for a new
agreement with a 12-month renewal.



                                                     C-1
      Flow Chart 2: Implementing or Continuing the Data
              Exchange/ Matching Operation*
                                                     START



          During the establishment of a new                        During the agreement renewal
         agreement with a new State agency,                        process with the State agency
                  (see Flow Chart 1),                                    (see Flow Chart 1),

     the State agency transitions from the written             the State agency continues without
     business process of the data exchange with                interruption the current data exchange/
     SSA to implementing changes and/or                        matching process with SSA.
     modifications in computer systems, policies,
     and practices.




     State agency implements Office of Systems                 State agency has already implemented
     Security Operations Management’s                          OSSOM information system security
     (OSSOM) system security guidelines.                       guidelines.



     The State agency begins the actual data                   State agency continues the data
     exchange/ matching process with SSA.                      exchange/ matching process with SSA.




   If a problem arises, the State agency contacts the DX Coordinator who determines the nature of the
   problem and uses Regional resources first to resolve it, then contacts the appropriate SSA office(s).
   [See next flow chart.]




   OSSOM performs compliance reviews of SSA’s computer system security requirements at the State
   agency every 3 years.

   - OSSOM and the DX Coordinator have coordinating roles before, during, and after the compliance
   review.


* This flow chart describes the data exchange/matching process which began with the January 2005
model agreements. The data exchange/matching agreement cycle is 30 months: 18 months for a new
agreement with a 12-month renewal.




                                                     C-2
 Flow Chart 3: Resolution of Problems in the Current SSA Data Exchange/Matching Process*
                                                                                                            START

                                                                                      State agency contacts the Regional DX Coordinator
                                                                                       with a data exchange/matching problem, including
                                                                                                      redisclosure issues.


                                                                                    Regional DX Coordinator determines the nature of the
                                                                                   problem, works with the State agency, and uses Regional
                                                                                            resources first to resolve the problem.
                             RESOLUTION,
                             using Regional
                        resources, is conveyed                                     YES                Problem resolved?                NO
                          to the State agency.
                                                                                          If Regional resources are not sufficient,
                                                                                    the Regional DX Coordinator contacts resource staff in
                                                                                                      SSA components.



       SSA Component: Office of              SSA Component:                              SSA Component: Office of                   SSA Component: Office of           SSA Component:
       the General Counsel**                 Information Exchange and                    Systems Security Operations                Automation Support/ Data           Systems**
       - Policy clarifications of the        Matching Team**                             Management**                               Exchange Team**                    - DX Coordinator makes a
       Privacy Act                           - Policy clarifications of the data         - Security certification of State agency   - Coordinating role for Regional   Change, Asset, and
       - Circumstances in which              exchange/matching agreement,                information systems                        DX Coordinators                    Problem Reporting System
       information can be disclosed or       including redisclosure of                   - Compliance reviews                       - Contacts other components        request for assistance.
       redisclosed                           information                                 - Advice on systems safeguards for         when problems are reported.        - Data formats
                                                                                         sensitive information                                                         - Data transmission
                                                                                                                                                                       - Connectivity problems

                                                                               Working with the Regional DX Coordinator, one SSA
                                                                               component may resolve the reported problem, or two
                             RESOLUTION,                                      or more components may work together, depending on
                         using SSA component
                                                                                           the nature of the problem.
                            resource staff, is
                         conveyed to the State
                                agency.



* This flowchart describes the general problem resolution procedure in the data exchange/matching process which began with the January 2005 model agreements.

** Office of the General Counsel/Office of Program Law; Office of Public Disclosure;
   Office of Disability and Income Security Programs/Office of Income Security Programs/Office of Earnings and Information Exchange/Information Exchange and Matching Team;
   Office of Financial Policy and Operations/Office of Systems Security Operations Management;
   Office of Operations/Office of Automation Support/Division of Electronic Service Delivery/Data Exchange Team;
   Office of Systems/Office of Earnings, Enumeration and Administrative Systems/Division of Information, Verification and Exchange Services/Data Exchange Branch.




                                                                                                        C-3
                                                                               Appendix D

Agency Comments

To:       Inspector General

From:        Regional Commissioner
             Kansas City Region

Subject: SSA’s Controls over Redisclosure of Sensitive Information (A-07-07-17055) -
Response

Thank you for the opportunity to comment on the attached draft audit report. During the course
of this audit, our staffs had several opportunities to meet and discuss the complexities of the data
exchange process. I appreciate the amount of work that went into this audit and the preparation
of this report.

Our comments on OIG's recommendations are as follows:

1. Ensure that State agency contractors in the Kansas City Region have signed an agreement that
   obligates them to follow the terms in the data exchange agreement.

      •   We agree with this recommendation. The requirements in SSA's data exchange
          agreements changed with the July, 2007 agreement cycle. These changes were
          incorporated to heighten awareness of agreement compliance issues at both the State and
          Federal level. For example, the agreements now contain specific language regarding the
          State's use of contractors. In addition, they require State Agencies to provide
          contractors/agents with a copy of the data exchange agreement and related attachments
          before they provide the initial disclosure of data to the contractor/agent.

2. Work with the appropriate Headquarters' components to determine when and by whom
   periodic on-site inspections should be conducted to ensure that State agencies in the Kansas
   City Region have sufficient controls in place to prevent and detect the types of redisclosure
   instances we identified in our review.

      •   We agree with this recommendation. The Office of Systems Security Operations
          Management (OSSOM) currently has jurisdiction for all Data Matching systems security
          and agreement compliance reviews and conducts periodic onsite reviews (at least every
          three years) to ensure compliance with the agreement. Recently, the Kansas City Region
          has been assigned the Operation’s Lead for a workgroup to explore how the regions can
          assist with oversight of agreement compliance at the regional level. Onsite inspections


                                                D-1
       are one of many options the workgroup is taking under consideration to improve
       agreement compliance. If this proposal is adopted, it would have the potential of
       providing more frequent onsite reviews.

3. Work with the appropriate Headquarters’ components to determine whether a provision
   should be added to the data exchange agreement requiring the State agency to perform
   periodic on-site inspections of contractors’ safeguards for sensitive information, including
   contractors’ private computer system safeguards as well as a review of confidentiality and
   redisclosure procedures and practices.

   •   We will refer this recommendation to our Headquarters component responsible for
       writing the agreements. Although we agree with the content of this recommendation, the
       language for the Computer Matching Agreements are determined at the Agency level and
       approved by the Office of Management and Budget. We believe that State oversight of
       contractors is critical to agreement compliance. The Kansas City led workgroup will
       address how this could possibly be accomplished and, where appropriate, make
       recommendations to the Deputy Commissioner for Operations for possible changes.

4. Determine if the four incidences of redisclosure identified in this report meet the loss or
   possible loss of PII criteria and take appropriate actions.

   •   Through our prior experiences with State Agencies, we have found that one of the
       obstacles to proper disclosure is the lack of a written definition of what constitutes “SSA
       Information” as it relates to our computer matching process. Another task of the
       aforementioned workgroup has been to establish a written definition of "SSA
       Information" that can be easily understood and applied by all involved. This definition,
       which has been approved by the Office of Public Disclosure (OPD), provides us with an
       analysis tool for determining whether SSA or State information is involved in
       redisclosures. Note: This definition was not available when OIG conducted this audit.

       My staff will contact the State to expand upon the details concerning the redisclosures
       referenced in the OIG report. We will apply the OPD-approved written definition of SSA
       Information to our analysis of each of the redisclosure scenarios.

       Should we determine that SSA Information was involved, we will refer the incidents to
       our Regional Security and Integrity staff to determine if loss of Personally Identifiable
       Information (PII) applies and take appropriate actions.

If you have questions, please contact me at 816-936-5700. If your staff needs additional
assistance or information, they may contact Kathy Woolsey, Director, Center for Programs
Support by email at kathy.t.woolsey@ssa.gov or by phone at 816-936-5630.


                                              /s/
                                     Michael W. Grochowski


                                                D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Carol L. Cockrell, Senior Analyst

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-07-17055.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
